TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Internal Revenue Service Should
                 Implement an Efficient Internal Information
                  Security Continuous Monitoring Program
                       That Meets Its Security Needs



                                     September 17, 2014

                             Reference Number: 2014-20-083




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                           Although the Treasury Department’s intentions
SHOULD IMPLEMENT AN EFFICIENT                          for consistency and efficiency are workable for
INTERNAL INFORMATION SECURITY                          most of its offices and bureaus, TIGTA found
CONTINUOUS MONITORING PROGRAM                          that, based on the large scale of the IRS’s
                                                       computer environment, a one-size-fits-all
THAT MEETS ITS SECURITY NEEDS
                                                       approach does not provide the best security for
                                                       the IRS. TIGTA also identified inefficiencies the
Highlights                                             IRS will experience if it selects the
                                                       recommended Treasury Department tool.
Final Report issued on                                 WHAT TIGTA RECOMMENDED
September 17, 2014
                                                       TIGTA recommended that the IRS Chief
                                                       Technology Officer continue to move forward
Highlights of Reference Number: 2014-20-083
                                                       and coordinate, as appropriate, with the
to the Internal Revenue Service Chief
                                                       Treasury Department to implement a stronger
Technology Officer.
                                                       internal ISCM program that allows executives to
IMPACT ON TAXPAYERS                                    make the most informed decisions that affect the
                                                       security of the IRS network. This includes:
The IRS is in the process of implementing an           1) selecting and implementing an internal
Information Security Continuous Monitoring             dashboard, 2) taking advantage of the General
(ISCM) program. When fully implemented, the            Services Administration’s Blanket Purchase
program will allow the IRS to continuously             Agreement through the Department of
monitor security controls of its computer assets       Homeland Security’s CDM program to acquire
in real time, thus improving the effectiveness of      products to ensure that gaps in coverage and
the safeguards and countermeasures to protect          tool enhancements of the ISCM program are
taxpayer information and information systems.          adequately addressed and best suited for the
                                                       IRS environment, and 3) ensuring that tools
WHY TIGTA DID THE AUDIT
                                                       selected for use (such as the database scanning
This audit was initiated as part of our Fiscal         tool) are the most effective and make the most
Year 2014 Annual Audit Plan and addresses the          efficient use of IRS resources.
major management challenge of Security for
                                                       IRS officials agreed with our recommendations
Taxpayer Data and Employees. The overall
                                                       and plan to continue coordinating with Treasury
objective of this review was to assess the
                                                       to ensure that the IRS selects the most effective
current state of Continuous Diagnostics and
                                                       and efficient security tools that meet the unique
Mitigation (CDM) program controls in place at
                                                       needs of the IRS computing environment. The
the IRS.
                                                       IRS also plans to take advantage of the General
WHAT TIGTA FOUND                                       Services Administration’s Blanket Purchase
                                                       Agreement to acquire products best suited for
Although implementation of the ISCM program            the IRS’s environment.
has been slow across the Federal Government,
the IRS has been in compliance with                    The IRS also plans to establish an
Department of Homeland Security and                    enterprise-wide ISCM integrated project team to
Department of the Treasury guidelines.                 direct the selection and implementation of an
                                                       integrated dashboard of the security scanning
In addition to the mandatory guidelines imposed        tools to ensure that stakeholders and decision
by the Office of Management and Budget,                makers are well-informed to make risk-based
Treasury Department officials have also                decisions and to pursue tool enhancements for
mandated that their bureaus use only the               current tools and tool selections for gaps to
Treasury Department’s dashboard that will serve        ensure that the most cost-efficient method is
as the official reporting for the ISCM program         used to the extent that funding is available.
and use those security tools selected by
Treasury Department officials for consistency.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 17, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Should Implement
                             an Efficient Internal Information Security Continuous Monitoring
                             Program That Meets Its Security Needs (Audit # 201320003)

 This report presents the results of our review to assess the current state of Continuous
 Diagnostics and Mitigation program controls in place at the Internal Revenue Service (IRS).
 This audit is included in the Treasury Inspector General for Tax Administration’s Fiscal
 Year 2014 Annual Audit Plan and addresses the major management challenge of Security
 for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Kent Sagara, Acting
 Assistant Inspector General for Audit (Security and Information Technology Services).
                                 The Internal Revenue Service Should Implement an
                                  Efficient Internal Information Security Continuous
                                 Monitoring Program That Meets Its Security Needs




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Should Continue to
          Move Forward in Implementing a Stronger Information
          Security Continuous Monitoring Program .................................................... Page 4
                    Recommendation 1:........................................................ Page 8

          The Internal Revenue Service Should Leverage
          the Blanket Purchase Agreement to Acquire Security
          Tools Needed for Its Environment ................................................................ Page 8
                    Recommendation 2: .................................................................. Page 12

                    Recommendation 3:........................................................ Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – National Institute of Standards and Technology
          Security Automation Domains ...................................................................... Page 18
          Appendix V – Office of Management and Budget Deadlines ...................... Page 20
          Appendix VI – Management’s Response to the Draft Report ...................... Page 23
         The Internal Revenue Service Should Implement an
          Efficient Internal Information Security Continuous
         Monitoring Program That Meets Its Security Needs




                   Abbreviations

BPA          Blanket Purchase Agreement
CDM          Continuous Diagnostics and Mitigation
CONOPS       Concept of Operations
DHS          Department of Homeland Security
eGRC         Enterprise Governance Risk and Compliance
FISMA        Federal Information Security Management Act
FY           Fiscal Year
GSA          General Services Administration
IRS          Internal Revenue Service
ISCM         Information Security Continuous Monitoring
NIST         National Institute of Standards and Technology
OMB          Office of Management and Budget
TIGTA        Treasury Inspector General for Tax Administration
                       The Internal Revenue Service Should Implement an
                        Efficient Internal Information Security Continuous
                       Monitoring Program That Meets Its Security Needs




                                     Background

The need to know its current security posture at any given
point in time is vital for any organization. To strengthen          Information security
the Nation’s cybersecurity posture, the Administration and    continuous monitoring (ISCM)
                                                                 is defined as maintaining
the Office of Management and Budget (OMB) identified               ongoing awareness of
cybersecurity as one of 14 Cross-Agency Priority Goals,             information security,
which included continuous monitoring of all Federal             vulnerabilities, and threats
information systems.                                             to support organizational
                                                               risk management decisions.
During Calendar Year 2013, the Federal Government has
taken actions to support and accelerate agency
implementation of effective risk management programs. In coordination with the OMB, the
Federal Chief Information Officer’s Council and the Committee on National Security Systems
established the Joint Continuous Monitoring Working Group, which developed the
U.S. Government Concept of Operations (CONOPS) for ISCM. This CONOPS supplements
National Institute of Standards and Technology (NIST) guidelines by providing a roadmap and
more specific implementation guidance to stakeholders across the Federal Government.
The ISCM is defined as maintaining ongoing awareness of information security, vulnerabilities,
and threats to support organizational risk management decisions. The requirement to manage
information security risk on a continuous basis includes the requirement to monitor the security
controls in Federal information systems and the environments in which those systems operate on
an ongoing, real-time basis. Figure 1 presents the ISCM security automation domains, as
defined by the NIST.




                                                                                          Page 1
                            The Internal Revenue Service Should Implement an
                             Efficient Internal Information Security Continuous
                            Monitoring Program That Meets Its Security Needs


                             Figure 1: Security Automation Domains




                             Source: NIST Special Publication 800-137 Information
                             Security Continuous Monitoring (ISCM) for Federal
                             Information Systems and Organizations.

Appendix IV presents a brief explanation of each security automation domain. To fully
implement the ISCM across the Government, the OMB has instructed agencies to develop and
maintain an ISCM strategy and establish an ISCM program consistent with existing statutes,
OMB policy, NIST guidelines, and the CONOPS. To assist with this effort from a
Governmentwide perspective, the Department of Homeland Security (DHS) has established a
Continuous Diagnostics and Mitigation (CDM) program.
Agencies shall implement continuous monitoring of security controls as part of a phased
approach through Fiscal Year (FY) 2017. In accordance with the CONOPS, Phase 1 of the
DHS CDM program, which included the Federal dashboard,1 requires automating the following
subsets of information security capabilities:
       Hardware Asset Management (part of Asset Management).
       Software Asset Management (part of Asset Management).
       Configuration Management.
       Vulnerability Management.


1
 In management information systems, a dashboard is an easy to read, often single page, real-time user interface,
showing a graphical presentation of the current status (snapshot) and historical trends of an organization’s key
performance indicators to enable instantaneous and informed decisions to be made at a glance.
                                                                                                           Page 2
                          The Internal Revenue Service Should Implement an
                           Efficient Internal Information Security Continuous
                          Monitoring Program That Meets Its Security Needs


Under this program, the DHS coordinated with the General Services Administration (GSA) to
establish a Governmentwide Blanket Purchase Agreement (BPA) under Multiple Award
Schedule 70, which Federal, State, local, and tribal governments can leverage to deploy a basic
set of capabilities to support continuous monitoring of security controls in Federal information
systems and environments of operation. The BPA, awarded on August 12, 2013, provides a
consistent, Governmentwide set of ISCM program tools to enhance the Federal Government’s
ability to identify and respond, in real time or near real time, to the risk of emerging cyberthreats.
It also capitalizes on strategic sourcing to minimize the costs associated with implementing
requirements of the Risk Management Framework.2
The Internal Revenue Service’s (IRS) ISCM program is managed by the Information Technology
organization’s Cybersecurity office. In addition to the Cybersecurity office, program
implementation is supported by the Information Technology organization’s Enterprise
Operations, User Network Services, and Enterprise Services offices for Phase 1 of the ISCM
program.
This review was performed with information obtained from the IRS’s Information Technology
organization, including the offices of Cybersecurity, Enterprise Operations, Enterprise Services,
and User Network Services, in New Carrollton, Maryland, during the period November 2013
through May 2014. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




2
  The Risk Management Framework provides a disciplined and structured process that integrates information
security and risk management activities into the systems development life cycle. The Risk Management Framework
steps include: categorize, select, implement, assess, authorize, and monitor.
                                                                                                      Page 3
                           The Internal Revenue Service Should Implement an
                            Efficient Internal Information Security Continuous
                           Monitoring Program That Meets Its Security Needs




                                     Results of Review

The Internal Revenue Service Should Continue to Move Forward in
Implementing a Stronger Information Security Continuous Monitoring
Program
The OMB issued Memorandum 10-28, Clarifying Cybersecurity Responsibilities and Activities
of the Executive Office of the President and the Department of Homeland Security (DHS), which
defines DHS activities within the Federal Government. DHS activities will include (but will not
be limited to):
       Overseeing the Governmentwide and agency-specific implementation of and reporting on
        cybersecurity policies and guidance.
       Overseeing and assisting Governmentwide and agency-specific efforts to provide
        adequate, risk-based, and cost-effective cybersecurity.
       Overseeing the agencies’ compliance with the Federal Information Security Management
        Act (FISMA)3 and developing analyses for the OMB to assist in the development of the
        FISMA annual report.
       Overseeing the agencies’ cybersecurity operations and incident response and providing
        appropriate assistance.
       Annually reviewing the agencies’ cybersecurity programs.
All departments and agencies are required to coordinate and cooperate with the DHS as they
carry out their cybersecurity responsibilities. The DHS is currently coordinating Federal
Government efforts to roll out agencies’ ISCM programs and is using its CDM program as a
means for agencies to purchase tools needed for their ISCM programs.
Although the IRS is complying with initial DHS and Department of the Treasury requests, which
have satisfied some of the OMB deadlines to date, the Federal Government process to acquire
vendor tools and dashboards has taken longer than expected. The DHS has scheduled meetings
among agencies, vendors, and bidders into FY 2015. As a result, Treasury Department officials
do not expect to meet any additional OMB deadlines that were issued in November 2013 on the
rollout and implementation of the first three security automation domains of the ISCM program.
Appendix V presents the OMB ISCM program deadlines and the status of required actions by the
IRS.

3
  Federal Information Security Management Act of 2002 ("FISMA", 44 U.S.C. § 3541, et seq.) is a United States
federal law enacted in 2002 as Title III of the E-Government Act of 2002 (Pub. L. 107–347, 116 Stat. 2899).
                                                                                                         Page 4
                            The Internal Revenue Service Should Implement an
                             Efficient Internal Information Security Continuous
                            Monitoring Program That Meets Its Security Needs


The IRS has made progress implementing its ISCM program
Progress has been made in implementing the IRS’s ISCM program, although the progress is still
in the early stages of development. For example, in September 2013, the IRS released an
ISCM Strategy document that defines and develops an IRS-specific ISCM strategy to be used
to establish and implement an ISCM program. This strategy discusses the key IRS roles, the
officials who have a major part in the program, and the requirements and activities at each
organizational tier. Currently, the IRS is working on an ISCM plan that better defines the current
initiatives and establishes a clear vision for the future state of the IRS’s ISCM program. The IRS
stated that going forward, the ISCM plan will be a living document continually addressing and
monitoring the IRS’s information technology environment.
OMB Memorandum 14-03, Enhancing the Security of Federal Information and Information
Systems, and the CONOPS both have issued deadlines and milestones for agencies to implement
Phase 1 by FY 2014. However, because the Federal Government rollout is behind schedule, the
IRS and other agencies will not meet all of these deadlines. For example, the DHS has not
selected a Federal dashboard to report ISCM program metrics. The DHS has also set a schedule
into FY 2015 for agencies and vendors to meet in private to determine individual solutions for
their ISCM programs.
Despite the Federal delay in ISCM program implementation, the IRS must be in compliance with
both Treasury Department and OMB guidelines for its ISCM program. The IRS has been
participating along with other bureaus in Treasury Department meetings on the ISCM program
and in DHS training. The IRS has satisfied OMB requirements for agencies that include:
         Creating a strategy to implement the ISCM program.
         Identifying specific individuals to manage the agency’s ISCM program.
         Identifying resource and skill requirement gaps to manage and coordinate the internal
          ISCM program.
         Coordinating with the Treasury Department on the CDM program foundational survey
          that was sent to the DHS and signing the Treasury Department Memorandum of
          Agreement with the DHS.4
The IRS has many tools in place for Phase 1 of the ISCM program that sustain current controls
for identifying security vulnerabilities. The IRS is taking the initiative to enhance its current
tools and is planning the integration of a comprehensive, enterprise-wide information technology
service management solution that includes the Enterprise Configuration Management System;
the Knowledge, Incident, Service Asset Management System; the End-2-End Monitoring and
Event Management System; and the Work Request Management System. By following the


4
    See Appendix V for the OMB deadlines.
                                                                                            Page 5
                           The Internal Revenue Service Should Implement an
                            Efficient Internal Information Security Continuous
                           Monitoring Program That Meets Its Security Needs


Information Technology Infrastructure Library Process Model,5 the IRS will be creating a more
robust system by integrating asset management, configuration management, change
management, and service management.

Moving forward, the IRS should implement an internal dashboard
It is the DHS’s responsibility to establish a Federal dashboard for the ISCM program, which will
provide a Governmentwide view of the ISCM program as well as the technical specifications and
guidance for agencies on the requirements for submitting information to this Federal dashboard.
However, the security-related information gathered for input to the Federal dashboard will not
provide the comprehensive information required to make risk-based decisions about the
effectiveness of all selected and implemented security controls by the agencies. Additional
security-related information will be needed to make fully informed risk-based decisions
regarding specific information systems. Therefore, an internal IRS dashboard or similar tool
would give a comprehensive view of all the systems, and not just the metrics reported to the
Federal dashboard, so that risk-based decisions can be made when security vulnerabilities arise.
With the release of the IRS’s ISCM Strategy document, the Treasury Department has been a
constant guide throughout the ISCM program process. In October 2013, the Treasury
Department issued a memorandum stating that a continuous monitoring dashboard would be
used at the Treasury Department level for all bureaus, which would save the bureaus the expense
of having to purchase their own dashboard. The dashboard will remain at the Treasury
Department’s Government Security Operations Center, and all Treasury Department bureaus will
feed information from each of the security automation domains into this dashboard.
The DHS is responsible for the purchase and rollout of the Federal dashboard for the
ISCM program that will include both Federal and agency-level metrics for the entire Federal
Government. However, the DHS has not selected a dashboard product. Based on DHS
coordination, Treasury Department officials have estimated that the selection of a Federal
dashboard and the completion of Phase 1 of the ISCM program implementation will not be
known until the third quarter of FY 2015.
Although the IRS has many security tools in place to satisfy the requirements for Phase 1 of the
ISCM program, the reports from these tools are sent to various dashboards or directly to
stakeholders and not to a single dashboard that could provide consistency in reporting and allow
decision makers to see a comprehensive view. Without a main control point for consolidating
security tool metrics, critical information necessary for making risk-based decisions may be
overlooked, and according to OMB Memorandum 14-03, all agencies are ultimately responsible
for security vulnerabilities within their agencies. The OMB has set specific ISCM program

5
 The Information Technology Infrastructure Library is a set of practices for information technology service
management that focuses on aligning information technology services with the needs of business. It is used to
demonstrate compliance and to measure improvement, including a process model that organizations can use for
implementing their practices.
                                                                                                          Page 6
                            The Internal Revenue Service Should Implement an
                             Efficient Internal Information Security Continuous
                            Monitoring Program That Meets Its Security Needs


implementation deadlines for the agencies once the DHS dashboard is selected. The following
deadlines are dependent on the Federal dashboard being selected:
        Ensure that all Phase 1 products necessary to meet DHS reporting requirements provide
         data compatible with the Federal dashboard maintained by the DHS.
        Complete installation of agency- and bureau/component-level dashboards.
        Begin submitting automated data feeds for Phase 1 focus areas to the Federal dashboard.
Although the IRS has not selected a dashboard for its ISCM program, it has options for the
selection. Currently, the IRS is implementing a business management tool, RSA Archer
enterprise Governance Risk and Compliance (eGRC),6 which will be used as a compliance
dashboard. Although the Treasury Inspector General for Tax Administration (TIGTA) did not
evaluate the RSA Archer eGRC as a risk-based dashboard, it is a viable option according to the
IRS. The Cybersecurity office selected the RSA Archer eGRC because of its high rating by
Gartner as an eGRC tool, and since the IRS’s selection, the DHS has included it in its BPA.
Risk prioritization is an area that will eventually be portrayed in the RSA Archer eGRC. It will
help management quantify various risks based on the critical level of the system or server.
The IRS currently uses the RSA Archer eGRC platform that monitors contractor training, and
TIGTA and Government Accountability Office reviews. The IRS has also begun piloting the
integration of a scanning tool into the RSA Archer eGRC so that the metrics of this tool can be
rolled up directly into the dashboard. This dashboard could be used for the IRS’s ISCM program
to support risk-based decisions by stakeholders to assess the vulnerabilities identified by the
security scanning tools.
During our review, funding for the RSA Archer eGRC was approved to obtain more server
capacity. However, as tools are integrated into the dashboard, whether for the ISCM program or
compliance monitoring, server capacity could be a future problem and may prohibit the
integration of more scanning tools into the dashboard, which could limit the amount of metrics
and affect stakeholders’ decisions if the metrics do not include all systems or mitigating factors.
As another option, the IRS has access to the GSA’s BPA through the DHS CDM program.
The IRS is able to select a dashboard from the BPA if it better meets its internal requirements.
Although the Treasury Department foresees that the Federal dashboard will not be selected until
well into FY 2015, the IRS may find a more cost-efficient interim dashboard while waiting for
the Federal selection in the upcoming fiscal year.
Although the Treasury Department has issued Treasury Chief Information Officer
Memorandum 14-02, Standard Tool Selection for Automated Information Security Continuous


6
  RSA Archer eGRC is a flexible enterprise eGRC framework application that allows organizations to tailor their
unique requirements, create supporting applications, and integrate multiple data sources without touching a single
line of code.
                                                                                                             Page 7
                            The Internal Revenue Service Should Implement an
                             Efficient Internal Information Security Continuous
                            Monitoring Program That Meets Its Security Needs


Monitoring (ISCM), stating that there will be one dashboard to report ISCM program metrics for
the Treasury Department, Treasury Department officials agreed that given the size and
complexity of the IRS’s computer environment, an IRS internal dashboard would give IRS
stakeholders a comprehensive view of the status of IRS systems, allowing for a more secure
environment. As a courtesy, the IRS should coordinate with Treasury Department officials on
the selection of its internal dashboard and the metrics integration with the Treasury Department
dashboard.

Recommendation
The Chief Technology Officer should continue to move forward and coordinate, as appropriate,
with the Treasury Department to implement a stronger internal ISCM program that allows
executives to make the most informed decisions that affect the security of the IRS network by
taking the following action.
Recommendation 1: The Chief Technology Officer should select and implement an
integrated dashboard of the security scanning tools to allow stakeholder and decision makers to
make well-informed risk-based decisions.
         Management's Response: The IRS agreed with our recommendation. The
         Chief Technology Officer will select and implement an integrated dashboard of the
         security scanning tools to allow stakeholders and decision makers to make well-informed
         risk-based decisions by establishing an enterprise-wide integrated project team to direct
         the IRS’s ISCM initiative. Based on the future direction of the ISCM integrated project
         team, the IRS will select and implement an integrated, local dashboard of its security
         scanning tools.

The Internal Revenue Service Should Leverage the Blanket Purchase
Agreement to Acquire Security Tools Needed for Its Environment
As the largest agency within the Treasury Department, the IRS has numerous systems and
platforms to administer the Nation’s tax system. Compared with other Treasury Department
bureaus, the IRS has far more systems and software, many of which dwarf other Treasury
Department bureaus’ systems, with 150 FISMA reportable Major Applications and General
Support Systems,7 more than 7,000 servers, and more than 100,000 workstations. In addition,

7
  The FISMA requires agencies to develop and maintain an inventory of major information systems operated by or
under the control of the agency. The FISMA considers the following as “reportable” information systems:
1) the General Support System is an interconnected set of information resources under the same direct management
control that shares common functionality and normally includes hardware, software, information, data, applications,
communications, and people and 2) the Major Application is an application that requires special attention to security
due to the risk and magnitude resulting from the loss, misuse, or unauthorized access to or modification of the
information in the application.
                                                                                                             Page 8
                        The Internal Revenue Service Should Implement an
                         Efficient Internal Information Security Continuous
                        Monitoring Program That Meets Its Security Needs


the IRS’s computer environment is complex and varied, with different software and hardware
products for various computer components. To require an agency with approximately
93,000 employees and with responsibility for millions of taxpayer records to include the
purchasing of tools in a one-size-fits-all process may not be the best approach for the IRS and
could possibly slow any progress on the implementation of the ISCM program and result in the
risk of allowing gaps in the security of critical systems.
As such, the IRS has security tools in place that address the first three security automation
domains required in Phase 1 and the Patch Management security automation domain as well.
With a complex computer environment that includes various network devices, applications,
databases, hardware, software, middleware, and operating system platforms, the IRS may need to
use more than one type of security tool for identifying, tracking, and preventing vulnerabilities.
These tools are an integral part of identifying security vulnerabilities over the IRS’s numerous
systems and networks.
In efforts to ensure that the bureaus are compliant with the ISCM program as required by the
OMB, the Treasury Department is spearheading the implementation by holding periodic
meetings with the bureaus to streamline the tool selection for each of the security automation
domains in Phase 1. The Treasury Department has been collecting information from the various
bureaus regarding the ISCM program tools to be used to fulfill DHS’s Task Order 1 of the
CDM program and the three security automation domains of Phase 1 outlined in the Joint
Continuous Monitoring Working Group’s CONOPS document released in 2013.
DHS’s Task Order 1 includes the three security automation domains identified in the CONOPS
as Asset Management broken down as Hardware and Software Asset Management,
Configuration Management, and Vulnerability Management. Task Order 1 also identifies web
and code scanning tools.
The OMB issued a memorandum dated November 2013 that outlines the due dates for the
following year for every agency and the parameters that must be met in implementing the
ISCM program. In addressing gaps, agencies should leverage, to the extent practicable, the
GSA BPA. As stated in the memorandum and outlined in the CONOPS, agencies have the
discretion to implement the tools necessary for their ISCM program technical architecture.
   1. Leveraging the services and products offered by the DHS CDM program;
   2. Leveraging the agency’s existing products and services; and/or
   3. Implementing a hybrid approach by which agencies can leverage the DHS CDM program
      to procure products but implementing it using their own hardware.
For consistency, the Treasury Department is mandating bureaus use the tool it selected for
official reporting for the ISCM program, even if another tool is better suited for a specific
environment or performs the same function as the mandated tool. The Treasury Department
stated that the purpose of this request is to have all information consistent among the bureaus

                                                                                            Page 9
                             The Internal Revenue Service Should Implement an
                              Efficient Internal Information Security Continuous
                             Monitoring Program That Meets Its Security Needs


when feeding information to the dashboard at the Treasury Department. With the variety of tools
offered by numerous vendors, Treasury Department officials are working to coordinate with
bureaus to streamline the selection process. However, this process and purchasing of tools has
been slow at best. Currently, Treasury Department officials have selected only one tool for
Phase 1.
On March 25, 2014, the Treasury Department issued Treasury Chief Information Officer
Memorandum 14-02 on CDM program tool standardization. The memorandum states that when
the procurement process is completed and tools are selected, the Treasury Department standard
mandatory CDM program tools will be deployed across bureau infrastructures either by a DHS
service provider/integrator or by the bureaus themselves. Treasury Department officials have
collected these preferences from each bureau already. The bureaus will be responsible for the
operation of the CDM program tools deployed in their environments. The bureaus may continue
to supplement the Treasury Department standard tools with their own security tools, provided
that the Treasury Department standard CDM program tools retain budgetary priority and are free
of technical interference from the bureaus’ tools.
Although efforts to streamline tools for efficiency and consistency could be possible, security
should take precedence and is the backbone to the ISCM program. After discussing the inherent
risks associated with the overall size of the IRS and the numerous systems containing taxpayer
information, Treasury Department officials agreed that security should be the main priority, and
not consistency, when implementing an ISCM program. To assist in this effort, the Treasury
Department suggested that the IRS leverage the BPA to acquire the tools necessary for
identifying security vulnerabilities in the IRS environment. Treasury Department officials
requested that the IRS coordinate with them when acquiring tools to determine the best cost
savings.

Inefficiencies could result if the IRS selects the recommended Treasury
Department tool
In the fall of 2013, the Treasury Department selected DbProtect as the official tool for database
scanning for the bureaus. The Treasury Department requested 5,000 licenses of DbProtect
through the DHS’s BPA with the GSA. Of the licenses requested, the DHS informed the
Treasury Department that it would only receive 950 licenses. As a result, the Treasury
Department will need to determine which bureaus will receive licenses and the approximate
number for each.
Through discussions with IRS officials, we were informed that the IRS has moved away from
DbProtect and is now using Guardium for its database scanning. Although neither product was
an “out-of-the-box”8 solution, according to the IRS, Guardium appeared to be the more practical

8
 Out-of-the-box feature or functionality, particularly in software, is a feature or functionality of a product that works
immediately after installation without any configuration or modification. In this situation, the IRS would need to
configure the software to make it a viable solution for its environment.
                                                                                                               Page 10
                          The Internal Revenue Service Should Implement an
                           Efficient Internal Information Security Continuous
                          Monitoring Program That Meets Its Security Needs


and cost-effective choice for IRS mainframe database scanning. The IRS has invested
significant resources in Guardium over the last three years to make it suitable to the IRS
scanning environment.
If the IRS were to stop using Guardium and renew a contract with DbProtect, it would have
wasted considerable funds to adapt Guardium as a database scanning tool, including the time and
effort attributed to making the Guardium product a workable solution. Furthermore, additional
time and resources would be required to make DbProtect a capable solution, with no assurance
that it will be comparable to that of Guardium.
Requiring the IRS to adopt a technology that does not best suit its security environment could
inhibit its ability to implement a robust ISCM program strategy and potentially force the IRS to
invest additional time and resources in order to comply with Treasury Department requirements.
To require that the IRS purchase and maintain more than one tool to scan the same operating
system is an inefficient use of resources.

The IRS lacks an enterprise-wide software management system
The IRS does not have an enterprise-wide software management system. As part of Phase 1 of
the ISCM program, the Asset Management security automation domain includes Software Asset
Management. Although the IRS’s ISCM Strategy document states that the IRS has tools to
identify or discover software on the networks, we found that an enterprise-wide management
system for software was not in place.
In prior TIGTA reviews9 addressing workstations, servers, and mainframes, TIGTA found that
the IRS lacks an enterprise-wide repository and organizational structure for software
management. The IRS has not invested in the resources to develop and implement an effective
software asset management program. In response to TIGTA’s reports, the IRS stated that
one tool cannot possibly track, discover, and manage software. Therefore, the IRS is currently
working on a toolkit to implement an enterprise-wide software management program. In
addition, a recently completed MITRE Corporation gap and overlap security tool analysis for the
IRS found that the IRS lacks tools for detecting unauthorized software and security setting
compliance on perimeter firewalls and proxies, wireless access points, and handheld devices.
According to DHS training, the purpose of software asset management is to identify
unauthorized software on devices that is likely to be used by attackers as a platform from which
to extend compromise of the network. Security scans should target software products and
executables (individual program files). Agencies should maintain a list of authorized software at
both the product and executable level and treat other software actually on the network as a


9
 TIGTA, Ref. No. 2013-20-025, Desktop and Laptop Software License Management Is Not Being Adequately
Performed (June 2013); TIGTA, Ref. No. 2014-20-002, The Internal Revenue Service Should Improve Mainframe
Software Asset Management and Reduce Costs (Feb. 2014); and TIGTA, Ref. No. 2014-20-042, The Internal
Revenue Service Should Improve Server Software Asset Management and Reduce Costs (Sept. 2014).
                                                                                                  Page 11
                            The Internal Revenue Service Should Implement an
                             Efficient Internal Information Security Continuous
                            Monitoring Program That Meets Its Security Needs


defect. The agency should remove, authorize/assign, or accept the risk for the other software
classified as a defect.
The IRS needs tools to cover gaps for the ISCM Software Asset Management security
automation domain. Without the necessary security tools to detect and remove unauthorized
software, the IRS is vulnerable to security risks and the exploitation of IRS systems.

The IRS should enhance security tools currently in use
Currently, the IRS is using many security tools required for Phase 1 of the ISCM program to
address the first three security automation domains, such as a database scanning, web and code
scanning, laptop and server configuration scanning, unauthorized hardware and software
scanning, and security network scanning. However, the IRS discovered that these tools may
need additional resources to enrich the current tool capability. The IRS has the option to use the
BPA to improve the security of its ISCM program by enhancing tools already in use.
Some of these tools could also be used in a broader sense; for example, one of the security tools
that the IRS owns is BDNA Technopedia Discover™10 for asset discovery. However, the part of
BDNA that could be enhanced is BDNA Normalize.™ Normalize will allow raw data to be
recognized in a common language between systems. Normalize also aligns and updates
inconsistent data such as vendor names, product names, product version, etc., to provide a
consistent view into data across multiple information technology systems. With Normalize, the
IRS could enhance the language between the BDNA tool and another IRS scanning tool
currently in use to compare the scanning results of assets. The IRS could take advantage of the
BPA to acquire the additional software to connect the two scanning tools. By enhancing the
tools, the data are easily recognized and shared between the tools in a common way, thereby
allowing stakeholders to make informed risk decisions.
Security will be improved by enhancing the existing tools and adding additional resources for the
tools to operate optimally. Without these enhancements, the tools could allow vulnerabilities
that might otherwise be identified and mitigated.

Recommendations
The Chief Technology Officer should:
Recommendation 2: Take advantage of the GSA BPA through the DHS’s CDM program to
acquire products to ensure that gaps in coverage and tool enhancements of the ISCM program
are adequately addressed and best suited for the IRS environment.



10
  Technopedia Discover can scan assets across multiple data centers and firewall zones. It quickly discovers,
identifies, and categorizes more than 450,000 types of hardware and software products to provide trusted, complete,
and enriched information technology inventory information.
                                                                                                          Page 12
                        The Internal Revenue Service Should Implement an
                         Efficient Internal Information Security Continuous
                        Monitoring Program That Meets Its Security Needs


       Management's Response: The IRS agreed with our recommendation. The Chief
       Technology Officer will take advantage of the GSA BPA to acquire products to ensure
       that gaps in coverage and tool enhancements are adequately addressed and best suited for
       the IRS environment. The Chief Technology Officer will establish an enterprise-wide
       integrated project team to direct the IRS’s ISCM initiative. Based on the future direction
       of the ISCM integrated project team and the tools analysis already completed, the IRS
       will pursue tool enhancements for current tools and tool selections for gaps in the most
       efficient method to the extent funding is available.
Recommendation 3: Continue to coordinate with the Treasury Department to ensure that the
tools selected for use (including the database scanning tool) are the most effective and make the
most efficient use of IRS resources.
       Management's Response: The IRS agreed with our recommendation. The Chief
       Technology Officer will continue to coordinate with Treasury to ensure that the IRS
       selects the most effective and efficient security tools in terms of cost and to fully ensure
       that all unique technical needs within the IRS computing environment are addressed.




                                                                                             Page 13
                       The Internal Revenue Service Should Implement an
                        Efficient Internal Information Security Continuous
                       Monitoring Program That Meets Its Security Needs


                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to assess the current state of CDM program controls in place at the
IRS. To accomplish our overall goal, we:
I.     Determined whether CDM program controls surrounding the Asset Management security
       automation domain were working as intended.
       A. Determined the current state of CDM program controls for the Asset Management
          security automation domain and whether the current controls are effective and
          compliant with applicable guidance.
       B. Determined whether proposed CDM program controls and the timeline for
          implementation of these controls are compliant with applicable guidance.
II.    Determined whether CDM program controls surrounding the Configuration Management
       security automation domain are working as intended.
       A. Determined the current state of CDM program controls for the Configuration
          Management security automation domain.
       B. Determined whether proposed CDM program controls and the timeline for
          implementation of these controls are compliant with applicable guidance.
III.   Determined whether CDM program controls surrounding the Patch Management security
       automation domain are working as intended. (Note: This security automation domain
       was not a part of Phase 1 mandated by the OMB. Although we reviewed this area
       because it was in the IRS’s strategy, we did not report on this test.)
       A. Determined the current state of CDM program controls for the Patch Management
          security automation domain.
       B. Determined whether proposed CDM program controls and the timeline for
          implementation of these controls are compliant with applicable guidance.
IV.    Determined whether CDM program controls surrounding the Vulnerability Management
       security automation domain are working as intended.
       A. Determined the current state of CDM program controls for the Vulnerability
          Management security automation domain.
       B. Determined whether proposed CDM program controls and the timeline for
          implementation of these controls are compliant with applicable guidance.


                                                                                         Page 14
                       The Internal Revenue Service Should Implement an
                        Efficient Internal Information Security Continuous
                       Monitoring Program That Meets Its Security Needs


V.     Assessed the timing for full implementation of the CDM program.
       A. Determined whether the IRS has received appropriate guidance from the Department
          of the Treasury.
       B. Determined whether the IRS has made adequate progress in development of the
          remaining security automation domains.
       C. Determined any setbacks and hurdles experienced in implementing the CDM
          program.
       D. Determined how the future-state vendors will be selected and assessed the potential
          for fraudulent manipulation of this process by the IRS.
       E. Determined the status of the remaining seven security automation domains.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the OMB, the Joint Continuous
Monitoring Working Group’s CONOPS, the NIST, and the Treasury Department guidelines for
continuous monitoring and the IRS’s efforts to implement these controls in order to determine
near real-time security of the IRS networks and data to allow ongoing authorizations and
risk-based decisions. We evaluated these controls by conducting interviews and meetings,
observing tools, and reviewing documentation with cybersecurity management and business
owners at the IRS responsible for securing the Asset Management, Configuration Management,
and Vulnerability Management security automation domains.




                                                                                        Page 15
                      The Internal Revenue Service Should Implement an
                       Efficient Internal Information Security Continuous
                      Monitoring Program That Meets Its Security Needs


                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Joseph F. Cooney, Audit Manager
Cari Fogle, Lead Auditor
Midori Ohno, Senior Auditor
Sam Mettauer, Information Technology Auditor




                                                                                     Page 16
                     The Internal Revenue Service Should Implement an
                      Efficient Internal Information Security Continuous
                     Monitoring Program That Meets Its Security Needs


                                                                            Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Director, Security Risk Management OS:CTO:C:SRM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 17
                        The Internal Revenue Service Should Implement an
                         Efficient Internal Information Security Continuous
                        Monitoring Program That Meets Its Security Needs


                                                                                 Appendix IV

        National Institute of Standards and Technology
                 Security Automation Domains

 Security
Automation
 Domain                                             Description

  Asset         Asset management tools help maintain inventory of software and hardware within
Management      the organization. This can be accomplished via a combination of system
                configuration, network management, and license management tools or with a
                special-purpose tool. NOTE: The CONOPS defines this area as Hardware Asset
                Management and Software Asset Management and makes them two separate
                domains, which equal four domains for Phase 1.
Vulnerability   A vulnerability is a software flaw that introduces a potential security exposure.
Management      Vulnerability scanners are commonly used in organizations to identify known
                vulnerabilities on hosts and networks and on commonly used operating systems and
                applications. These scanning tools can proactively identify vulnerabilities, provide
                a fast and easy way to measure exposure, identify out-of-date software versions,
                validate compliance with an organizational security policy, and generate alerts and
                reports about identified vulnerabilities. NOTE: The CONOPS includes this domain
                in Phase 1.
Configuration Configuration management tools allow administrators to configure settings,
Management monitor changes to settings, collect setting status, and restore settings as needed.
              NOTE: The CONOPS includes this domain in Phase 1.
  Patch         Patch management tools scan for vulnerabilities on systems and system components
Management      participating in an organization’s patching solution, provide information regarding
                needed patches and other software updates on affected devices, and allow an
                administrator to decide on the patching implementation process.
  Event         Event management involves monitoring, and responding to as necessary,
Management      observable occurrences in a network or system. A variety of tools and technologies
                exist to monitor events, such as intrusion detection systems and logging
                mechanisms. Some tools may detect events based on known attack signatures,
                while others detect anomalies in behavior or performance that could indicate an
                attack.

                                                                                          Page 18
                       The Internal Revenue Service Should Implement an
                        Efficient Internal Information Security Continuous
                       Monitoring Program That Meets Its Security Needs



 Security
Automation
 Domain                                           Description

 Incident     Certain events may signal that an incident has occurred, which is a violation or
Management    imminent threat of violation of computer security policies, acceptable use policies,
              or standard computer security practices. Incident management tools may assist in
              detecting, responding to, and limiting the consequences of a malicious cyberattack
              against an organization.
 Malware      Malware detection provides the ability to identify and report on the presence of
 Detection    viruses, Trojan horses, spyware, or other malicious code on or destined for a target
              system.
 Network      Network configuration management tools include host discovery, inventory,
Management    change control, performance monitoring, and other network device management
              capabilities. Some network configuration management tools automate device
              configuration and validate device compliance against preconfigured policies.
              Network management tools may be able to discover unauthorized hardware and
              software on the network, such as a rogue wireless access point.
 License      Similar to systems and network devices, software and applications are also a
Management    relevant data source for the ISCM program. Software asset and licensing
              information may be centrally managed by a software asset management tool to
              track license compliance, monitor usage status, and manage the software asset life
              cycle. License management tools offer a variety of features to automate inventory,
              utilization monitoring and restrictions, deployment, and patches for software and
              applications.
Information   There are vast quantities of digital information stored across the myriad of systems,
Management    network devices, databases, and other assets within an organization. Managing the
              location and transfer of information is essential to protect the confidentiality,
              integrity, and availability of the data.
 Software     The NIST Software Assurance Metrics and Tool Evaluation project defines
 Assurance    software assurance as the “planned and systematic set of activities that ensures that
              software processes and products conform to requirements, standards, and
              procedures from NASA Software Assurance Guidebook and Standard to help
              achieve: (1) Trustworthiness – No exploitable vulnerabilities exist, either of
              malicious or unintentional origin (2) Predictable Execution – Justifiable confidence
              that software, when executed, functions as intended.”



                                                                                          Page 19
                       The Internal Revenue Service Should Implement an
                        Efficient Internal Information Security Continuous
                       Monitoring Program That Meets Its Security Needs


                                                                           Appendix V

       Office of Management and Budget Deadlines

                                                            Responsible
          Required Action                Deadline             Entity           IRS Status 

1   Develop ISCM program            February 28, 2014.    All agencies.   Completed
    strategy (or strategies).                                             August 9, 2013.
2   Identify resource and skill     April 30, 2014.       All agencies.   Completed
    requirement gaps (if any) to                                          April 30, 2014.
    manage and coordinate the
    internal ISCM program.
3   Identify specific individuals   April 30, 2014.       All agencies.   Completed
    to manage the agency’s                                                April 14, 2014.
    ISCM program.
4   Complete the CDM program        Immediately, if not   All civilian    Completed survey of
    foundational survey and         already completed.    agencies.       data tools. Sent to
    return to the DHS.                                                    the Treasury
                                                                          Department on
                                                                          December 3, 2013.
5   Sign Memorandum of              Immediately, if not   All civilian    The Treasury
    Agreement with the DHS.         already completed.    agencies        Department is in
                                                          receiving DHS   contact on behalf of
                                                          CDM program     the IRS.
                                                          services.
6   Begin to procure products       February 28, 2014.    All agencies.   Satisfied by the
    and services to support                                               Treasury Department
    Phase 1 focus areas (as                                               by purchase of
    described in the CONOPS).                                             DbProtect for
                                                                          bureaus in Fall 2013.
                                                                          Also, the DHS has
                                                                          pushed the meetings
                                                                          with vendors into
                                                                          FY 15.



                                                                                   Page 20
                      The Internal Revenue Service Should Implement an
                       Efficient Internal Information Security Continuous
                      Monitoring Program That Meets Its Security Needs



                                                             Responsible
          Required Action                Deadline              Entity             IRS Status 

7   Begin to deploy products to     May 30, 2014.          All agencies.   Completed; the IRS
    support ISCM for all                                                   already has products
    systems.                                                               in deployment.
8   Ensure that all information     May 30, 2014.          All agencies.   Completed; the
    systems are authorized to                                              information systems
    operate in accordance with                                             for Phase 1 at the
    Federal requirements prior to                                          IRS have
    initiating ISCM for those                                              authorization to
    systems.                                                               operate.
9   Publish technical               Three months prior     The DHS.        N/A.
    specifications for agency       to deployment of the
    data feeds for Phase 1 focus    Federal dashboard.
    areas to the Federal
    dashboard.
10 Ensure that all Phase 1          Within three months    All agencies.   To be determined.
   products necessary to meet       of the Federal
   DHS reporting requirements       dashboard being
   provide data compatible with     deployed.
   the Federal dashboard
   maintained by the DHS.
11 Complete installation of         Within six months of All agencies.     To be determined.
   agency- and                      the Federal
   bureau/component-level           dashboard being
   dashboards.                      deployed.
12 Begin submitting automated       Within six months of All agencies.     To be determined.
   data feeds for Phase 1 focus     the Federal
   areas to the Federal             dashboard being
   dashboard.                       deployed.
13 Publish guidance            March 31, 2014.             The NIST.       Issued June 2014.
   establishing a process and
   criteria for agencies to
   conduct ongoing assessments
   and authorizations.



                                                                                      Page 21
                       The Internal Revenue Service Should Implement an
                        Efficient Internal Information Security Continuous
                       Monitoring Program That Meets Its Security Needs



                                                           Responsible
           Required Action             Deadline              Entity           IRS Status 

14 Update ISCM program            Within three months    All agencies.   In progress.
   strategies to describe the     of receiving
   process for performing         additional guidance
   ongoing authorizations.        in this area (either
                                  from the NIST, the
                                  DHS, and/or the
                                  Joint Continuous
                                  Monitoring Working
                                  Group).
15 Determine whether agencies November 15, 2014          Inspectors      Completed
   have documented their ISCM (and each year             General.        August 2013.
   program strategy.          thereafter).
16 Assess whether agencies        November 15, 2014      Inspectors      To be determined.
   have implemented ISCM for      (and each year         General.
   information technology         thereafter).
   assets.
17 Evaluate agencies’ risk      November 15, 2014        Inspectors      To be determined.
   assessments used to develop (and each year            General.
   their ISCM program strategy. thereafter).
18 Verify that agencies conduct   November 15, 2014      Inspectors      To be determined.
   and report on ISCM program     (and each year         General.
   results in accordance with     thereafter).
   their continuous monitoring
   strategy.




                                                                                  Page 22
       The Internal Revenue Service Should Implement an
        Efficient Internal Information Security Continuous
       Monitoring Program That Meets Its Security Needs


                                                    Appendix VI

Management’s Response to the Draft Report




                                                             Page 23
The Internal Revenue Service Should Implement an
 Efficient Internal Information Security Continuous
Monitoring Program That Meets Its Security Needs




                                                      Page 24
The Internal Revenue Service Should Implement an
 Efficient Internal Information Security Continuous
Monitoring Program That Meets Its Security Needs




                                                      Page 25
